HHS/OIG Audit:"Review of Duplicate Medicare Fee-for-Service Payments at Capital Health Plan,"(A-04-01-01005)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Duplicate Medicare Fee-for-Service Payments at Capital Health Plan," (A-04-01-01005)
November 13, 2001
Complete
Text of Report is available in PDF format (425 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of an Office of Inspector General (OIG), Office of Audit Services, review of duplicate
Medicare fee-for-service (FFS) payments at Capital Health Plan (CHP).  Our review indicated that Medicare FFS made
$30,283 in erroneous payments by paying for services that were claimed on CHPs 1999 cost report and that were also
billed directly to Medicare.  Because Medicare paid physicians directly for these services, and reimbursed CHP for
its expenses related to paying for the services, Medicare has paid twice for the same services.  The OIG recommends
that CHP refund the $30,283 in overpayments made on behalf of CHP enrollees.